HHS/OIG, Audit - "Review of Refugee Cash Assistance Payments in Florida
for the Period July 1, 2002, Through June 30, 2005," (A-04-06-03510)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Refugee Cash
Assistance Payments in Florida for the Period July 1, 2002, Through June 30,
2005," (A-04-06-03510)
October 16, 2007
Complete
Text of Report is available in PDF format (929 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit  was to determine
whether the Florida Department of Children and Families (DCF) made Refugee Cash
Assistance (RCA) payments only to beneficiaries whose eligibility periods had
not expired.  We found that during the 3-year period end June 30, 2005, DCF
made payments totaling at least $55,530 to beneficiaries whose
eligibility periods had expired.  In addition, DCFs computerized eligibility
system contained missing or inaccurate dates of entry or of asylum for some
beneficiaries, allowing erroneous payments to occur.  As a result, DCF made
$9,561 in additional erroneous payments to 20 beneficiaries.
In addition to certain procedural recommendations, we
recommended that DCF make a financial adjustment of $55,530 for the RCA payments
made to ineligible beneficiaries and $9,561 for RCA payments to 20
beneficiaries whose dates of entry or of asylum were not documented in the case
files.  DCF generally concurred with our recommendations.  However, DCF did not
address what steps it would take regarding the 20 beneficiaries whose case files
did not contain documents that established their eligibility for RCA payments.
Therefore, we continued to recommend that DCF recover the $9,561 in overpayments
for these 20 beneficiaries.